Audit Report




OIG-08-021
Management Letter for the Fiscal Year 2007 Audit of the
Department of the Treasury Forfeiture Fund’s Financial
Statements


December 14, 2007




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 14, 2007


            MEMORANDUM FOR ERIC HAMPL, DIRECTOR
                           TREASURY FORFEITURE FUND

            FROM:                 Michael Fitzgerald /s/
                                  Director, Financial Audits

            SUBJECT:              Management Letter For Fiscal Year 2007 Audit of the
                                  Department of the Treasury Forfeiture Fund’s Financial
                                  Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Department of the Treasury Forfeiture Fund (TFF) Fiscal Year 2007
            financial statements. Under a contract monitored by the Office of Inspector
            General, GKA, P.C. (GKA) , an independent certified public accounting firm,
            performed an audit of the financial statements of TFF as of September 30, 2007
            and for the year then ended. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements; and the GAO/PCIE Financial Audit
            Manual.

            As part of its audit, GKA issued and is responsible for the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and other operational matters that were identified during the
            audit, but were not required to be included in the audit reports.

            In connection with the contract, we reviewed GKA’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where GKA did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a
            member of your staff may contact Susan L. Barron, Audit Manager, Financial
            Audits at (202) 927-5776.

            Attachment
                  gka, P.C.                                      Certified Public Accountants | Management Consultants




                           TREASURY FORFEITURE FUND 



                                  MANAGEMENT LETTER 

                                    FISCAL YEAR 2007


                                          November 6, 2007 





                                                                   Member of the American Institute of Certified Public Accountants


1015 18th Street, NW · Suite 200 · Washington, DC 20036 · Phone: 202-857-1777 · Fax: 202-857-1778 · WWW.gkacpa.com
gka, P.C.
                                                          Certified Public Accountants | Management Consultants

                            Inspector General, U.S. Department of the Treasury, and the
1015 18th Street, NW        Director, Treasury Forfeiture Fund
      Suite 200
  Washington, DC            We have audited the Principal Statements (balance sheet and the related statements of
        20036               net cost, changes in net position, and budgetary resources, hereinafter referred to as
                            “financial statements”) of the Department of the Treasury Forfeiture Fund (the Fund)
   Phone: 202-857-1777 
    as of and for the year ended September 30, 2007, and have issued an unqualified
    Fax: 202-857-1778 

 Website: www.gkacpa.com
   opinion thereon dated November 6, 2007. In planning and performing our audit of the
                            financial statements of the Fund, we considered its internal control over financial
                            reporting in order to determine our auditing procedures for the purpose of expressing
                            our opinion on the financial statements and not to provide assurance on the internal
                            control. We have not considered the internal control since the date of our report.

                            During our audit, we noted certain matters involving the internal control over financial
                            reporting that we consider to be significant deficiencies under the standards
                            established by the American Institute of Certified Public Accountants. The significant
                            deficiencies are reported separately in our Report on Internal Control over Financial
                            Reporting dated November 6, 2007.

                            We also noted certain matters involving the internal control over financial reporting
                            and other operational matters that are presented in this letter for your consideration.
                            These issues and recommendations, all of which have been discussed with the
                            appropriate members of Fund Management, are intended to improve the internal
                            control over financial reporting or result in other operating efficiencies. There were no
                            management letter comments carried over from prior years.

                            Our audit procedures are designed primarily to enable us to form an opinion on the
                            financial statements, and therefore may not bring to light all weaknesses in policies or
                            procedures that may exist. Our aim, however, is to use our knowledge of the Fund
                            gained during our audit to provide comments and suggestions we hope will be useful
                            to you.

                            This letter is intended solely for the information and use of the Management of the
                            Fund, the U.S. Department of the Treasury, OMB, the U.S. Congress, the Department
                            of the Treasury Office of Inspector General and the Government Accountability Office
                            and is not intended to be, and should not be used by anyone other than these specified
                            parties.

                            We appreciate the cooperation and courtesies extended to us. We will be pleased to
                            meet with you or your staff at your convenience to furnish any additional information.



                            November 6, 2007


                                                                       Member of the American Institute of Certified Public Accountants
     MANAGEMENT LETTER 

COMMENTS AND RECOMMENDATIONS 

  YEAR ENDED SEPTEMBER 30, 2007 

                   TREASURY FORFEITURE FUND 

        MANAGEMENT LETTER COMMENTS AND RECOMMENDATIONS 

                  YEAR ENDED SEPTEMBER 30, 2007 


1. 	CERTAIN UNITED STATES COAST GUARD REIMBURSEMENT REQUESTS
    WERE NOT BASED ON EXPENDITURES

An estimated amount of $250,000 of reimbursement requests submitted to the Fund for payment
by the United States Coast Guard (USCG) in May 2007 was not based on certified expenditures
but on obligations.

The Secretary of the Treasury’s Guidelines for Seized and Forfeited Property, and subsequent
issuances, require all reimbursements from the Fund to be based upon certification of actual
expenditures by the requesting law enforcement organization.

The USCG based the billing on obligations instead of actual expenditures. Reimbursements based
on obligations may cause incorrect accounting of disbursements of funds. The Treasury
Executive Office for Asset Forfeiture may disburse funds for transactions for which it is not
liable, causing financial loss to the Fund.

RECOMMENDATIONS

We recommend that Fund Management:

1. 	 Continues to work with performing partners to improve the accounting, billing, and reporting
     process for reimbursable transactions.

2. 	 Ensures that USCG submit billings for reimbursable transactions only upon incurring related
     expenditures.

MANAGEMENT RESPONSE

Fund Management and USCG will implement the following action plan to prevent a future
occurrence:

   1.	 The USCG’s Treasury Liaison will address internal practices of Super Surplus Funds
       distribution through the implementation of documented and standardized practices. These
       practices will be communicated via internal memo to the affected offices. Additionally,
       the USCG will implement this new policy to address the internal practices of the
       mandatory funds distribution. This policy will be available via USCG intranet to ensure
       all affected units’ understanding and compliance.

   2.	 Specifically, the policy will require the requesting unit to submit both purchase requests
       and invoice documents prior to the approval of requests for both Mandatory and Super
       Surplus Funds. The USCG feels that through increased oversight, submission of
       documents, and enforcement of policy, future issues will be eliminated.
                                               2
                   TREASURY FORFEITURE FUND 

        MANAGEMENT LETTER COMMENTS AND RECOMMENDATIONS 

                  YEAR ENDED SEPTEMBER 30, 2007 



The Fund’s response has not been subjected to the auditing procedures applied in the audit of the
financial statements and accordingly, we express no opinion on it.




                                               3

                   TREASURY FORFEITURE FUND 

        MANAGEMENT LETTER COMMENTS AND RECOMMENDATIONS 

                  YEAR ENDED SEPTEMBER 30, 2007 


2. CHAIN OF CUSTODY DOCUMENT NOT PROPERLY COMPLETED

In its examination of forty five (45) seizure case files for vehicles stored at Rod Robertson
Enterprises, Inc., Texas, GKA found 29 instances where the chain of custody document (CBP
Form 6051 – Custody Receipt for Seized Property and Evidence) did not bear the seizure number
assigned to the seized item. Additionally, in another instance, for an IRS item stored at Arc
Logistics, Inc., Texas, the chain of custody document for IRS (IRS Form 9573-Custody Receipt
for Retained or Seized Property) did not have the seizure number.

The seizure number was not recorded on the chain of custody document. The Statement of Work
for the general property contract, Section 2.2.3 – Receipt and Transfer states that “when
transferring custody, a chain of custody document is required to be properly executed. In
addition, the Contractor shall refer to the appendices for the unique requirements of USSS, IRS,
ATF, CBP, Border Patrol, and OFAC.”

A properly completed and executed official agency chain of custody document is required for all
property transferred to the custody of the Contractor. The Contractor shall not add anything or
write on the chain of custody document: except signature and quantity on the signature line.

An incomplete chain of custody document may defeat the purpose for which the form was meant
to serve, and lead to a breakdown in property accountability. Additionally, the legal implications
of a break in the chain of custody could be significant since this is necessary for any legal
proceeding.

RECOMMENDATION

Fund Management should ensure that the responsible bureaus’ official chain of custody document
is properly completed and executed for all property transferred to the custody of the Contractor.

MANAGEMENT RESPONSE

Corrective actions are underway to address this recommendation. CBP has put in several internal
controls that will ensure that all RRE files are updated with the seizure numbers.

The Fund’s response has not been subjected to the auditing procedures applied in the audit of the
financial statements and accordingly, we express no opinion on it.




                                                4

                MANAGEMENT LETTER 

            COMMENT AND RECOMMENDATIONS 

             CORRECTED IN FISCAL YEAR 2007 

__________________________________________________________________________
                   TREASURY FORFEITURE FUND 

        MANAGEMENT LETTER COMMENT AND RECOMMENDATIONS 

                 CORRECTED IN FISCAL YEAR 2007 


UNTIMELY RECORDING OF SEIZED AND FORFEITED PROPERTY AND
CURRENCY TRANSACTIONS BY THE U.S. SECRET SERVICE

In fiscal year 2006, certain amounts generated from the asset tracking system (FasTrak) and
reported on the Analysis of Changes in Seized and Forfeited Property and Currency (the
Rollforwards) by the U.S. Secret Service (Secret Service or USSS) did not agree with the
corresponding transactions recorded in the Fund’s accounting system. For instance, while the
Fund accounted for and reported revenue of $5,693,648 from Secret Service forfeited currency
(class code 971) in its accounting system, Secret Service reported $3,731,573 as deposits in
FasTrak resulting in a difference of $1,962,075. Additionally, the Fund accounted for and
reported seized currency in the suspense account (class code 733) of $13,131,656, however
Secret Service recorded $12,093,122 as the total ending seized balance in FasTrak. Typically, the
ending seized balance recorded in the inventory system should be higher than what is recorded in
the suspense account because the inventory system’s balance also includes seized currency on-
hand and frozen bank accounts.

RECOMMENDATIONS

We recommend that the Fund ensure that:

(1)	 In the absence of system integration, Secret Service should update the asset tracking system
     on a timely basis to be in sync with the accounting system.

(2)	 Required Secret Service system enhancements should be made to be able to capture and
     report pertinent financial information related to the assets being tracked.

(3)	 Secret Service also improve on its reconciliation process and perform them more frequently
     than currently required – at the end of the third quarter and at year end. Resulting
     adjustments should be made in the asset tracking system so as to remain current.

FISCAL YEAR 2007 STATUS

During fiscal year 2007, USSS followed proper procedures for the reconciliation of the asset
tracking system (FasTrak) and the Fund's accounting system (SAP), data entry, and
communication of issues.

This management letter comment has been substantially addressed in FY 2007 and is considered
closed.




                                               6

